         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report



       EPA Should Continue Efforts to
       Reduce Unliquidated Obligations
       in Brownfields Pilot Grants
       Report No. 08-P-0265

       September 16, 2008
Report Contributors:                 Melinda Burks
                                     Randy Holthaus
                                     Madeline Mullen
                                     Darren Schorer




Abbreviations

EPA            U.S. Environmental Protection Agency
OBLR           Office of Brownfields and Land Revitalization
OIG            Office of Inspector General
OSWER          Office of Solid Waste and Emergency Response
RLF            Revolving Loan Fund




Cover photo:     Construction taking place at a Seattle public hospital that is a cleaned up
                 brownfields site (EPA OIG photo).
                       U.S. Environmental Protection Agency                                               08-P-0265
                                                                                                  September 16, 2008
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review            EPA Should Continue Efforts to Reduce
                                  Unliquidated Obligations in Brownfields Pilot Grants
We sought to determine
whether the U.S.                   What We Found
Environmental Protection
Agency (EPA) has been using       EPA is taking action to reduce unliquidated obligations under brownfields grants.
funds in a timely manner for      EPA recently emphasized the need to close old grants. As a result, regions are
brownfields pilot projects, and   deobligating funds on some grants. Unliquidated obligations decreased from
whether funds were available      about $29.8 million in November 2007 to about $20.9 million in March 2008,
for deobligation.                 almost 30 percent.

Background                        Nonetheless, 48 grants more than 5 years old were still open as of March 2008.
                                  Of the almost $11 million of unliquidated funds reviewed in Regions 2 and 4, the
EPA implemented the               regions deobligated $1.3 million (almost 12 percent) during our audit. Up to an
brownfields program in 1995       additional $6.8 million could be available for deobligation for the 21 grants that
to empower States,                have ended or are scheduled to end by September 30, 2008. For grants awarded
communities, and other            prior to October 1, 2002, EPA puts deobligated Superfund funds back into the
stakeholders to work together     national Superfund account. EPA can then use the funds for other projects.
in a timely manner to assess,
clean up, and reuse               EPA had not consistently implemented a national policy or process that provides
brownfields. A brownfield is      reasonable assurance that brownfields grant funds will be spent in a timely
an abandoned property that        manner. EPA Headquarters has not provided specific guidelines on when grants
parties would like to redevelop   should be terminated, nor has it defined inadequate progress for grant
or reuse but the property might   performance. Regions have generally allowed time extensions when grantees
be contaminated by hazardous      requested them.
substances or pollutants. EPA
provides funds to local           Long periods between awarding and expending grant funds indicate that EPA is
governments for brownfield        not maximizing its resources. Rather than sitting idle, awarded funds could be
pilot projects to assess          put to better use by communities that are ready to proceed with assessment and
brownfields and to loan money     clean-up activities. Also, as awarded funds go unspent over time, the purchasing
for brownfields clean-up.         power of those dollars decreases.

                                   What We Recommend
For further information,
contact our Office of
Congressional and Public
                                  We recommend that the Assistant Administrator for the Office of Solid Waste and
Liaison at (202) 566-2391.        Emergency Response establish a process for reviewing non-performing grants,
                                  and develop procedures for terminating and deobligating funds from those grants.
To view the full report,          We recommend that model terms and conditions for assessment grants define the
click on the following link:      term “insufficient progress.” We also recommend that regions deobligate the
www.epa.gov/oig/reports/2008/
20080916-08-P-0265.pdf            remaining funds for 21 grants that are scheduled to end by September 30, 2008.
                                  EPA agreed with our recommendations and is in the process of establishing
                                  procedures that, when implemented, should adequately address the findings.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 16, 2008

MEMORANDUM

SUBJECT:           EPA Should Continue Efforts to Reduce Unliquidated Obligations in
                   Brownfields Pilot Grants
                   Report No. 08-P-0265


FROM:              Melissa M. Heist
                   Assistant Inspector General for Audit

TO:                Susan Parker Bodine, Assistant Administrator
                   Office of Solid Waste and Emergency Response


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $229,829.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Janet Kasper, Director, Contracts and
Assistance Agreement Audits, at 312-886-3059 or kasper.janet@epa.gov.
EPA Should Continue Efforts to Reduce                                                                                          08-P-0265
Unliquidated Obligations in Brownfields Pilot Grants




                                      Table of Contents
   Purpose........................................................................................................................    1

   Background .................................................................................................................       1

   Noteworthy Achievements .........................................................................................                 2

   Scope and Methodology.............................................................................................                 2

   Results of Review .......................................................................................................          2

           EPA’s Recent Actions Have Reduced Unliquidated Obligations..........................                                      2
           EPA Had Not Ensured Timely Use of Brownfields Funds ....................................                                  3
           Funds Available for Deobligation..........................................................................                5

   Recommendations ......................................................................................................             5

   Agency Response .......................................................................................................            5

   OIG Evaluation ............................................................................................................        6

   Status of Recommendations and Potential Monetary Benefits..............................                                           7



Appendices
   A       Details on Scope and Methodology..................................................................                        8

   B       Agency Response ..............................................................................................            10

   C       Distribution .........................................................................................................    13
                                                                                                       08-P-0265


Purpose
Our objective was to determine whether the U.S. Environmental Protection Agency (EPA) has
been using funds in a timely manner for brownfields pilot projects. To answer the objective, we
asked the following questions:

    •   What actions has EPA taken to ensure that funds are spent timely?
    •   What is the current unliquidated balance of grants in the brownfields program?
    •   Are there grant funds available for deobligation?

We focused on grants that were awarded before October 1, 2002, and were associated with two
programs: Brownfields Assessment Pilot Cooperative Agreements and Brownfields Cleanup
Revolving Loan Fund Pilot Cooperative Agreements.

Background
EPA implemented the brownfields program in 1995 to empower States, communities, and other
stakeholders in economic redevelopment to work together in a timely manner to assess, clean up,
and reuse brownfields. A brownfield is an abandoned property that parties would like to
redevelop or reuse but the property might be contaminated by hazardous substances or
pollutants. EPA estimated that as of April 2008 there were more than 450,000 brownfields in the
United States.

Initially, EPA provided money to local governments for hundreds of 2-year brownfield pilot
projects to assess brownfields and to loan money for brownfields clean-up through the following
two programs.1

    •   Brownfields Assessment Pilot Cooperative Agreements (assessment grants): These
        grants provide funding for grant recipients to inventory, characterize, assess, and conduct
        planning and community involvement related to brownfield sites. Eligible entities apply
        for up to $200,000 to assess sites contaminated by hazardous substances, pollutants, or
        contaminants.

    •   Brownfields Cleanup Revolving Loan Fund Pilot Cooperative Agreements (RLF):
        RLF grants provide funding to States, political subdivisions, and Indian tribes to fund low
        interest loans to clean up brownfields properties. The fund revolves by using loan
        repayments to provide new loans for other brownfield clean-ups. RLF grants generally
        provide funding up to $1,000,000 over 5 years to provide financial assistance for the
        clean-up of brownfields.2

EPA awarded more than $224 million from 1995 to 2002 for brownfields pilot grants, which
included assessment and RLF clean-up grants. As of March 4, 2008, there were $20.9 million in

1
  The Small Business Liability Relief and Brownfields Revitalization Act expanded the programs in 2002.
2
  Initially, RLF grants were funded up to $350,000. The threshold amount was later increased to $500,000, and then
to $1 million.


                                                        1
                                                                                       08-P-0265


unliquidated obligations for brownfield pilot grants. An unliquidated obligation is the amount of
grant funds awarded to a recipient that has not been spent.

EPA’s Office of Brownfields and Land Revitalization (OBLR), within the Office of Solid Waste
and Emergency Response (OSWER), allocates brownfields funds and issues guidance to the
EPA regions. Regional program and grants management offices award the grants and conduct
post-award monitoring, which includes monitoring of draw downs of funds based on the
proposed schedules in work plans. The region deobligates unused funds during the grant
closeout process. The regional project officers have primary responsibility for grants
management and oversight.

Noteworthy Achievements
EPA is taking action to reduce unliquidated obligations in brownfields and recently emphasized
the need to close old grants. As described in the Results of Review below, the balance of
unliquidated obligations decreased almost 30 percent from November 2007 to March 2008.

Scope and Methodology
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We interviewed OSWER and Office of the Chief Financial Officer staff in EPA Headquarters, as
well as brownfields and grants staff in Regions 2 and 4. We selected Regions 2 and 4 because of
their high balances of unliquidated obligations. We reviewed financial database records and
18 grant files (10 in Region 2 and 8 in Region 4). We conducted our review from November
2007 to March 2008. Additional details on our scope and methodology are in Appendix A.

Results of Review

EPA’s Recent Actions Have Reduced Unliquidated Obligations

In recent years, EPA has focused on reducing unliquidated obligations in the brownfields
program. OBLR has issued guidance memos that instruct regions to: (1) terminate
underperforming brownfields grants and (2) disapprove time extensions. Agency guidance from
September 2004 was followed by additional guidance in January and November 2007 advising
regions to terminate grants for failure to make adequate progress, and to deobligate funding. The
recent Office of Grants and Debarment’s Guidance on Project Period Duration and the Use of
New Awards to Fund Additional Work, effective for grant extensions requested beginning on
March 1, 2008, states that the total project period, including all amendments, may not exceed
7 years. In addition, OBLR is working on a memorandum to address non-performing
brownfields grantees.



                                                2
                                                                                             08-P-0265


As a result of actions being taken by EPA, the balance of unliquidated obligations for grants
older than 5 years decreased nearly 30 percent between November 2007 and March 2008.
Further, OBLR projects that the balance will be even lower by September 2008, as shown in
Table 1.
Table 1: Recent Brownfields Unliquidated Obligation Balances
                                        Unliquidated Obligation            Percentage Decrease
             Date                       Balance over 5 years old           from November 2007
 November 2007                                $ 29,753,886                          -
 March 2008                                   $ 20,897,074                       29.8 %
 September 2008 (EPA projection)              $ 11,422,755                       61.6 %
Source: EPA’s Integrated Financial Management System and OBLR staff projections

Regions 2 and 4 have taken actions to ensure funds are spent timely. Region 2 recently proposed
procedures to streamline the brownfields work plan approval process, which should help ensure
that funds are spent more timely. Region 4 established new grant terms and conditions so that if
a grantee has not made a loan by the second year (for a RLF grant) the region will consider
deobligating the money.

EPA Had Not Ensured Timely Use of Brownfields Funds

While EPA has been taking actions to address unliquidated obligations, there are still grants
where funds remain for more than the 3 or 5 years recommended in EPA policy memoranda. For
RLF grants, EPA policy states that grant recipients are required to make loans or make
significant progress towards making loans within 3 years of the grant award, and the recipient
has a maximum of 5 years to complete all required activities and request final payment of funds
from EPA. For other brownfields grants, such as assessment grants, EPA's recent policy limits
the total project period, including amendments, to 7 years.

EPA regions had extended the project periods for most of the 18 brownfields pilot grants we
reviewed, in one case by as much as 9 years. They cited various reasons, including staff turnover
and delays for site assessments to be completed. For example:

    •   EPA extended one assessment grant three times beyond its original 2-year period due to
        turnover in project staff. With four different project managers during a 6-year period, the
        grantee was unable to provide quarterly progress reports and cost documentation.
    •   EPA extended another assessment grant because the grantee did not have management
        and staffing to support grant activities.
    •   EPA extended a third grant beyond its original 2-year project period six times over the
        11-year period because of questions about the support for labor costs claimed.

As a result, funds were not available for other projects that may have had more immediate needs.

RLF grants represent the largest percentage of brownfields unliquidated obligation dollars
($23.6 million, or 89.4 percent of $26.4 million as of January 2008). Regional staff said that
difficulties with RLF grants have delayed spending of grant funds. For example, after grantees


                                                     3
                                                                                        08-P-0265


have waited for assessments to be completed, assessed properties might not be contaminated, so
loans may not be needed. Some grantees experience additional delays in setting up and staffing
a loan program, marketing it, and finding willing and able borrowers. For the grants reviewed,
EPA extended one RLF grant because of project manager turnover and the wait for sites to be
assessed, and another when prospective sites were not contaminated. EPA extended other grants
because of difficulties getting work plans approved.

Most of the problems cited above occurred because EPA lacks the control activities that are
needed to provide reasonable assurance that brownfields grant funds will be spent in a timely
manner. Control activities are policies, procedures, and other mechanisms that help ensure that
program objectives are met and are one of the internal control standards described in Office of
Management and Budget Circular A-123. Although OBLR guidance notes the need to terminate
old grants, regions use their discretion when making these decisions based on whether the
recipient has an acceptable justification, and have generally allowed no-cost time extensions
when recipients requested them. OBLR’s guidance for grants made prior to the new law in 2002
did not:

   •   Include specific deadlines for when to terminate and deobligate funds from
       non-performing grants, nor define inadequate progress.
   •   Instruct regions to deobligate funds on grants that were not making progress.
   •   Require a specific award term and condition defining adequate progress or compliance
       criteria for terminating non-performing grants.

Although the recent Guidance on Project Period Duration and the Use of New Awards to Fund
Additional Work issued by EPA’s Office of Grants and Debarment provides a specific deadline,
it does not address the other control activities.

OBLR has acknowledged that terms and conditions could be revised to better define insufficient
progress and address inadequate performance. For grants awarded in Fiscal Year 2008, the
model terms and conditions for RLF grants require grants to include one of the following:

   •   If after 2 years EPA determines that the recipient has not made sufficient progress in
       implementing its RLF, EPA may terminate the agreement. Sufficient progress is
       indicated by the grantee having made loan(s) and/or subgrant(s), but may also be
       demonstrated by a combination of all the following: hiring of all key personnel, the
       establishment and advertisement of the RLF, and the development of one or more
       potential loans/subgrants.

   •   If after 3 or 4 years [regions can choose] EPA determines that the recipient has not made
       sufficient progress in implementing its RLF, the EPA may terminate the agreement.
       Sufficient progress is indicated by the grantee having made at least one loan or subgrant.

The model terms and conditions for assessment grants state that “If after 1½ years from the date
of award, EPA determines that the cooperative agreement recipient has not made sufficient
progress in implementing its cooperative agreement, the Agency may terminate this agreement.”
The assessment grants do not define what sufficient progress is.


                                                4
                                                                                       08-P-0265


Funds Available for Deobligation

Although regions have made progress in closing some grants awarded prior to October 1, 2002,
48 grants – with a balance of $20,897,074 – were still open as of March 2008. Of the almost
$11 million of unliquidated funds we reviewed, Regions 2 and 4 have deobligated $1.3 million
from four grants.

Up to an additional $6.8 million could be available for deobligation after September 30, 2008.
There are 21 grants with project periods that have already ended or will end by September 30,
2008, with unliquidated amounts totaling $6,847,876. According to EPA’s Guidance on Project
Period Duration and the Use of New Awards to Fund Additional Work, the total project period
for grants may not exceed 7 years. These 21 grants will be more than 7 years old and cannot be
extended without a waiver from the Office of Grants and Debarment Director. Therefore, the
remaining funds on the 21 grants could be available for deobligation after September 30, 2008,
once EPA receives final reports from the grantees.

EPA needs to take action to ensure these funds are deobligated timely. Unliquidated obligations
and long time lags between obligating and spending funds indicate that EPA is not maximizing
its use of resources. Deobligating unused brownfields pilot grant funds (for grants awarded prior
to October 1, 2002) enables EPA to put those funds back into the national Superfund account,
where those funds can be used for other projects. Also, as awarded funds go unspent over time,
the purchasing power of those dollars decreases. For example, as a result of inflation, $200,000
awarded in 1999 is equivalent to only about $157,000 worth of goods or services in 2008.
Consequently, less environmental work can be accomplished after 9 years of grant inactivity.

Recommendations

We recommend that the Assistant Administrator for the Office of Solid Waste and Emergency
Response:

     1.    Establish a process for reviewing non-performing grants, and develop procedures for
           terminating and deobligating funds from those non-performing grants. The
           procedures need to define insufficient progress in brownfield grants.

     2.    Revise model terms and conditions for assessment grants to include a definition for
           the term “insufficient progress.”

     3.    Follow up to ensure that the regions deobligate the remaining funds for the 21 grants
           that have ended or are scheduled to end by September 30, 2008.

Agency Response
The Agency agreed with all three of our recommendations and identified corrective actions it has
taken or is planning to take in response to the recommendations. OSWER stated it will establish
a more rigorous annual review process in Fiscal Year 2008. As part of these efforts, OSWER
issued a memorandum on July 24, 2008, identifying select brownfields cooperative agreements


                                                5
                                                                                        08-P-0265


for the regional offices to review, based on specific criteria. OSWER provided its definition of a
non-performing or poor-performing grantee, and stated it will define “insufficient progress” in
the Fiscal Year 2009 brownfield grant terms and conditions. These revised terms and conditions
will be distributed to the regions in Spring 2009. In addition, OSWER stated it has followed up
with the regions to ensure that the 21 grants originally scheduled to end by September 30, 2008,
will be managed appropriately. OSWER stated that as of July 31, 2008, two grants have
already been officially closed-out. See Appendix B for the Agency’s complete response.

OIG Evaluation
Regarding Recommendation 1, while we believe the Agency’s response is on the right track, the
corrective action plan is not specific enough. To fully address this recommendation, EPA needs
to provide us with details of its new process or procedures, including the frequency of the new
review process.

EPA’s responses to Recommendations 2 and 3 are adequate and should address the findings in
our report. We request that the Agency provide us evidence that the revised terms and
conditions were distributed to the regions, when completed. We also request that the Agency
provide us documentation showing that the 21 grants that have ended or are scheduled to end by
September 30, 2008, have been deobligated, when completed.




                                                6
                                                                                                                                       08-P-0265



                                 Status of Recommendations and
                                   Potential Monetary Benefits


                                                                                                                             POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1        Action Official           Date      Amount      Amount

     1        5     Establish a process for reviewing non-performing        O        Assistant Administrator,
                    grants, and develop procedures for terminating and              Office of Solid Waste and
                    deobligating funds from those non-performing                     Emergency Response
                    grants. The procedures need to define insufficient
                    progress in brownfield grants.

     2        5     Revise model terms and conditions for assessment        O        Assistant Administrator,   06/30/2009
                    grants to include a definition for the term                     Office of Solid Waste and
                    “insufficient progress.”                                         Emergency Response

     3        5     Follow up to ensure that the regions deobligate the     O        Assistant Administrator,   12/31/2008
                    remaining funds for the 21 grants that have ended               Office of Solid Waste and
                    or are scheduled to end by September 30, 2008.                   Emergency Response




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                7
                                                                                        08-P-0265


                                                                                    Appendix A

                 Details on Scope and Methodology

We conducted our work from December 2007 to March 2008 in EPA Headquarters and
Regions 2 and 4. We selected Regions 2 and 4 because of their high balances of unliquidated
obligations. We interviewed EPA’s OSWER and Office of the Chief Financial Officer staff in
Headquarters, as well as brownfields and grants staff in the two regions. We reviewed guidance
documents, EPA database records, and management (internal) controls relevant to our objective.
We limited our review to brownfields grants awarded prior to October 1, 2002 (pilot grants).

To determine what actions EPA had taken to ensure that funds are spent timely, we interviewed
EPA staff in Headquarters and Regions 2 and 4, and reviewed policies and guidance
documentation. We also reviewed and analyzed documentation in the grant files in Regions 2
and 4 for our sample of 18 grants.

To determine the current unliquidated balance of these grants, we used data from EPA’s
Integrated Grants Management System and Integrated Financial Management System, as well as
data provided by OSWER. We did not test the controls over either system to ensure data validity
or reliability, as the information they contained was not significant to our conclusions. Our
findings and conclusions were based on review and evaluation of grant file documentation and
discussion with EPA staff. Specifically, we used the data to:

   •   Determine the universe of pilot brownfield grant unliquidated obligations at different
       points in time.
   •   Select a judgmental sample of active pilot grants with unliquidated obligations from the
       two EPA regions with the highest unliquidated obligations.
   •   Gather background information and prepare for grant file reviews for those grants
       selected.

From the universe of pilot brownfields grant unliquidated obligations, we judgmentally selected
samples of grants from Regions 2 and 4. Because we judgmentally selected the grants, we are
not projecting our results to the universe. For Region 2, we selected the grants with the highest
percentage of unliquidated obligations. For Region 4, we selected all eight open pre-law grants
with unliquidated obligation balances.

We selected a total of 18 grants for review, 10 in Region 2 and 8 in Region 4. The reviewed
grant files included 10 RLF and 8 assessment grants, totaling nearly 42 percent of the universe of
$26.4 million unliquidated obligations over 5 years old. See Table 2 below for a listing of the
18 brownfields pilot grants we reviewed.




                                                8
                                                                                                08-P-0265


Table 2: Reviewed Brownfields Pilot Grants
      Grant           Years         Cumulative       Unliquidated              Percentage of Funds
     Number           Open            Award           Obligations                   Not Spent
                                       RLF Grants Reviewed
    96429905            7          $ 4,712,546        $ 3,753,831                      79.7 %
    98210701            8          $ 1,000,000        $ 1,000,000                     100.0 %
    97432901            6          $ 1,000,000        $ 992,150                        99.2 %
    98487299            8          $ 1,200,000        $ 719,577                        60.0 %
    97434201            6          $ 2,200,000        $ 578,396                        26.3 %
    98210801            8          $ 500,000          $ 500,000                       100.0 %
    98210901            8          $ 500,000          $ 500,000                       100.0 %
    96426905            8          $ 500,000          $ 500,000                       100.0 %
    97408600            7          $ 500,000          $ 474,412                       94.9 %
    97487803            7          $ 900,000          $ 471,452                       52.4 %
                                   Assessment Grants Reviewed
    99254301            11         $ 419,355          $ 412,000                        98.2%
    98229401            7          $ 250,000          $ 250,000                       100.0 %
    98210501            8          $ 200,000          $ 196,419                       98.2 %
    99275201            10         $ 200,000          $ 190,215                       95.1 %
    98205601            8          $ 200,000          $ 168,820                       84.4 %
    98210601            8          $ 200,000          $ 152,503                       76.3 %
    99295201            9          $ 200,000          $    94,607                     47.3 %
    98458698            9          $ 450,000          $    19,378                      4.3 %
                                   $15,131,901        $10,973,760                      72.5%
Source: OIG-generated information from EPA databases and grant files as of January 2008

To determine whether there were grant funds available for deobligation, we interviewed EPA
staff in Headquarters and Regions 2 and 4, and reviewed policies and guidance documentation.
In addition, we reviewed and analyzed documentation in the grant files in Regions 2 and 4 for
our sample of 18 grants.

We reviewed prior Government Accountability Office and EPA Office of Inspector General
reports for information relevant to brownfields grants management or providing historical and
background information for our review. We did not follow up on any prior reports because none
related specifically to brownfields grant unliquidated obligations.




                                                      9
                                                                                     08-P-0265


                                                                                 Appendix B

                               Agency Response
August 15, 2008


MEMORANDUM

SUBJECT:             Agency Response to OIG Draft Report “EPA Should Continue Efforts to
                     Reduce Unliquidated Obligations in Brownfields Pilot Grants”
                     Assignment No. 2008-0114

FROM:                Susan Parker Bodine/s/
                     Assistant Administrator

TO:                  Bill A. Roderick
                     Deputy Inspector General
                     Office of Inspector General

       In accordance with EPA Manual 2750, the Office of Solid Waste and Emergency
Response (OSWER) is submitting the attached written response to the findings and
recommendations presented in the Office of Inspector General (OIG) draft report, “EPA Should
Continue Efforts to Reduce Unliquidated Obligations in Brownfields Pilot Grants,” dated July
18, 2008. Where appropriate, we have identified corrective actions our office has taken or is
planning to take in response to the draft findings and recommendations.

      Please contact David Lloyd, Director, Office of Brownfields and Land Revitalization, at
202-566-2731, if you have any additional questions.

Attachment




                                               10
                                                                                      08-P-0265


 Inspector General’s Recommendations in the July 18, 2008, Draft Audit Report: “EPA
 Should Continue Efforts to Reduce Unliquidated Obligations in Brownfields Pilot Grants”


    The Office of Solid Waste and Emergency Response (OSWER) response to the three
recommendations in the Inspector General’s draft audit report is as follows:

   1.     Establish a process for reviewing non-performing grants, and develop procedures for
          terminating and deobligating funds from those non-performing grants. The
          procedures need to define insufficient progress in Brownfield grants.

   RESPONSE: OSWER agrees with this recommendation and will establish a more rigorous
             annual review process in FY08. As part of these efforts, OSWER issued a
             memorandum on July 24, 2008, identifying select Brownfields cooperative
             agreements for the regional offices to review. All cooperative agreements
             with unliquidated obligations that met one of the following criteria were
             included in the report for the region’s review and response:

                 a) All open grants awarded in FY 2003 and prior fiscal years;
                 b) Assessment and Cleanup grants awarded in FY 2004; and
                 c) Grants that have passed their project end date or will end by December 31,
                    2008.

                 OSWER considers a non-performing or poor-performing grantee to be one
                 that has not made sufficient progress in implementing its grant, including not
                 drawing down its grant funds or drawing down very little funds in a
                 reasonable amount of time (i.e., within 1 ½ years from the date of award for
                 assessment and cleanup grants and within 3 years from the date of award for
                 revolving loan fund grants). OSWER will define “insufficient progress” in
                 the FY 2009 brownfield grant terms and conditions.

   2.     Revise model terms and conditions for assessment grants to include a definition for
          the term “insufficient progress.”

   RESPONSE: OSWER agrees with this recommendation and will revise the FY 2009
             assessment grant terms and conditions (T&Cs) to include the definition of
             “insufficient progress.” The T&Cs will be distributed to the regions in Spring
             2009.

   3.     Follow up to ensure that the regions deobligated the remaining funds for the 21 grants
          that have ended or are scheduled to end by September 30, 2008.

   RESPONSE: OSWER agrees with this recommendation. As of the date of this response,
             OSWER has followed-up with the regions to ensure that the 21 grants
             originally scheduled to end by September 30, 2008, will be managed
             appropriately. On July 24, 2008, OSWER issued a memorandum requesting


                                              11
                                                                   08-P-0265


the regions to review select Brownfields cooperative agreements. The 21
grants ending by September 30, 2008, are included in this review process. As
of July 31, 2008, two grants have already been officially closed-out.




                            12
                                                                              08-P-0265


                                                                            Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Grants and Interagency Agreement Management Division
Director, Office of Regional Operations
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Deputy Inspector General




                                           13
